            BULK FUEL STORAGE AND DELIVERY
              SYSTEM INFRASTRUCTURE FOR
          YAKIMA TRAINING CENTER, WASHINGTON

Report No. D-2000-164                          July 20, 2000




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector General,
 DoD, Home Page at: www.dodig.osd.mil.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

ACSIM                Assistant Chief of Staff for Installation Management
APC                  Army Petroleum Center
DESC                 Defense Energy Support Center
DLA                  Defense Logistics Agency
FORSCOM              U.S. Forces Command
JP8                  Jet Petroleum 8
MILCON               Military Construction
MACOM                Major Army Command
MR&E                 Maintenance, Repair, and Environmental
MOGAS                Motor Gasoline
POS                  Peacetime Operating Stock
YTC                  Yakima Training Center
                       Office of the Inspector General, DoD
Report No. D-2000-164                                                       July 20, 2000
   Project No. D1999-D000CG-0088.000

        Bulk Fuel Storage and Delivery Systems Infrastructure for
                  Yakima Training Center, Washington

                                Executive Summary

Introduction. This report is the first in a series that addresses the accuracy and
reliability of maintenance, repair, environmental, and construction requirements for
bulk fuel storage and delivery systems infrastructure.

In 1991, Program Budget Decision 735 authorized the transfer of military construction
(MILCON) funding authority to the Defense Logistics Agency for bulk fuel
infrastructure on military installations. Actual transfer of the funding responsibilities,
however, has been managed in phases. The period from 1993 through 1996 was
characterized by very low fuel-related DoD MILCON expenditures. Low levels of
funding over an extended period precipitated infrastructure deterioration to the point
where environmental issues became a concern. Additionally, the U.S. has changed
from a forward-deployed force to one based largely in the continental United States.
Therefore, DoD needs an enhanced en route refueling infrastructure to support
deployment of U.S. Forces worldwide to meet requirements of a two major theatre war
strategy. Consequently, demand for MILCON and maintenance, repair, and
environmental projects supporting fuel infrastructure is growing.

Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
maintenance, repair, environmental, and construction requirements for bulk fuel storage
and delivery systems infrastructure. Specifically, this audit evaluated requirements for
a new centralized bulk fuel storage facility located at Yakima Training Center, Yakima,
Washington. We also evaluated the management control program as it related to the
bulk fuel storage MILCON requirements validation process.

Results. The Army funded and contracted for construction of a bulk fuel storage
MILCON project at the Yakima Training Center that was not supported by valid
requirements. As a result, the Army is spending $3.8 million to construct bulk fuel
storage capacity that will be excess unless potential additional requirements are
validated.

Summary of Recommendations. We recommend that Garrison Commander, Fort
Lewis, and the Commander, U.S. Forces Command, establish procedures to review
and validate bulk fuel storage project requirements in accordance with DoD and Army
guidance. We also recommend that the Army Assistant Chief of Staff for Installation
Management take appropriate action to ensure that the Army Petroleum Center reviews
all MILCON bulk fuel storage project requirements before the projects are approved
for funding.
Management Comments. The Army concurred with each of the recommendations.
The Army nonconcurred with the finding and stated that the Army had a valid
requirement for additional fuel storage beyond what was provided by the renovated fuel
storage facility. The Army stated that the MILCON bulk fuel storage project was
necessary to support training for an anticipated second brigade to be stationed at Fort
Lewis, but that the MILCON project should have been reduced in scope. A discussion
of the management comments is in the Finding section of the report, and the complete
text is in the Management Comments section.

Audit Response. The Army did not have a valid requirement for additional fuel
storage beyond what was provided by the renovated fuel storage facility because the
installation did not have authorization for the fuel to support the anticipated additional
brigade. In addition, current fuel usage documentation and FY 2001 authorized fuel
inventory levels indicate that the storage capacity provided by the renovated storage
facility remains sufficient. However, the Army may have an emerging requirement for
the excess fuel storage capacity at the Yakima Training Center. Army management
stated that they anticipate a dramatic increase in fuel consumption as a result of the new
Interim Brigade Initiative, but they do not know how much of a fuel increase will be
required and have not initiated action with the Defense Energy Support Center in
accordance with DoD guidelines to request a fuel inventory increase.




                                            ii
Table of Contents

Executive Summary                               i


Introduction
     Background                                1
     Objectives                                2

Finding
     Excess Bulk Fuel Storage Infrastructure   3

Appendixes
     A. Audit Process
          Scope                                15
          Methodology                          15
          Management Control Program           16
          Prior Coverage                       16
     B. Report Distribution                    17

Management Comments
     Department of the Army Comments           19
Introduction
        This report is the first in a series being issued by the Inspector General, DoD,
        on DoD maintenance, repair, and environmental (MR&E) and military
        construction (MILCON) requirements for bulk fuel storage and delivery systems
        infrastructure (storage tanks, pipelines, dispensing facilities, hydrants, etc.).
        The Defense Logistics Agency (DLA) Defense Energy Support Center (DESC)
        is responsible for budgeting and funding MR&E and MILCON for DoD fuel
        terminals worldwide.



Background
        DLA has been responsible for centrally managing and maintaining DoD
        worldwide fuel terminals in its MR&E program since 1985. The transfer of
        bulk fuel infrastructure MR&E responsibility from the Military Departments to
        DLA became known as Phase I of the OSD Integrated Material Management
        Program.

        In 1991, Program Budget Decision 735 authorized the transfer of MILCON
        funding authority to DLA for fuel infrastructure on military installations.
        Actual transfer of the funding responsibilities, however, has been managed in
        two phases. In 1992 DLA assumed responsibility for facilities that store and
        distribute aviation fuels (Phase IIA sites) which included Air Force bases, Air
        National Guard activities, Navy and Marine Corps Air Stations, and Army fuel
        facilities.

        Phase IIB of the OSD Integrated Material Management Program called for
        capitalizing∗ all remaining mobility fuels delivered into intermediate storage
        facilities. The DLA planned to capitalize Phase IIB sites in FY 1996.
        However, actual capitalization was dependent on the completion of the DLA
        Fuels Automated System initiative. The Fuels Automated System
        implementation has been significantly delayed, but DLA has funded some
        Phase IIB candidate sites for maintenance and repair to potentially reduce
        environmental problems and costs after capitalization.

        The transfer of MILCON responsibility to DLA created a major funding issue
        because the defense budget had not increased DLA funding. The period from
        1993 through 1996 was characterized by very low fuel infrastructure-related
        MILCON expenditures. During this period when the Services would have
        historically expended an average of $66 million per year, DLA only averaged
        $17 million. Low levels of funding over an extended period precipitated
        infrastructure deterioration to the point where environmental issues became a
        concern. Additionally, the U.S. has changed from a forward-deployed force to
        one based largely in the continental United States. Therefore, DoD needs an
        enhanced en route refueling infrastructure to support deployment of U.S. Forces

∗
 Capitalization requires the transfer of ownership of the petroleum product from the Services to DLA.


                                                   1
     worldwide to meet timeline requirements of a two major theatre war strategy.
     Consequently, demand for MILCON and MR&E projects supporting bulk fuel
     infrastructure is growing.

     Fuels MILCON Funding Study. In 1997, the Office of the Deputy Under
     Secretary of Defense (Logistics) completed a study on DoD fuels MILCON
     funding. The study identified 114 MILCON projects totaling $1.5 billion in
     fuel-related MILCON requirements to meet environmental, operational, and
     strategic planning objectives for the proposed Future Years Defense Program
     (FYs 1999 through 2003).

     For FY 2000, DLA funded and approved $100.2 million for 5 projects, and for
     FY 2001, DLA has approved 14 projects with an estimated cost of $168 million.



Objectives
     Our overall objective was to evaluate the accuracy and reliability of DoD
     MR&E and construction requirements for bulk fuel storage and delivery systems
     infrastructure. Specifically, this audit evaluated requirements for a new
     centralized bulk fuel storage facility located at Yakima Training Center,
     Yakima, Washington. We also reviewed the adequacy of the management
     control program as it applied to the audit objective. See Appendix A for a
     discussion of the audit scope and methodology and the review of the
     management control program.




                                        2
           Excess Bulk Fuel Storage Infrastructure
           The Army funded and began construction of a bulk fuel storage
           MILCON project at the Yakima Training Center that was not supported
           by valid project requirements. This occurred because the Army did not
           adequately implement DoD and Army guidance that requires fuel-related
           MILCON project requirements to be reviewed, validated, and prioritized
           by installation senior management, the major Army command, and the
           service control point for bulk fuel storage facilities. As a result, the
           Army is spending $3.8 million to construct bulk fuel storage capacity
           that will be excess unless potential additional requirements are validated.



Policy Guidance
    DoD guidance prescribes policy for bulk fuel storage and delivery systems
    infrastructure. The guidance also documents the processes and assigns
    responsibilities for managing the infrastructure. Army policies and procedures
    implement the DoD guidance, and Army regulations on inventory management
    supply assign responsibilities for bulk fuel and related infrastructure.

    DoD Directive 4140.25, “DoD Management Policy for Energy Commodities
    and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes
    DoD policy for energy and related programs (i.e., petroleum, natural gas, coal,
    propellants, etc.). The Directive states that the programs shall support DoD
    peacetime and wartime missions and permit successful and efficient deployment
    and employment of forces. The Directive also states that DoD Components
    shall minimize inventories consistent with peacetime and contingency needs.

            DoD Responsibilities. The directive designates the Deputy Under
    Secretary of Defense (Logistics) as the DoD central administrator for energy
    policy and overall management responsibility for petroleum. The Directive
    designates the Deputy Under Secretary of Defense (Installations) as the DoD
    central manager for energy policy on installations.

             Defense Logistics Agency Responsibilities. The Director, DLA is
    responsible for planning, programming, and budgeting for facility maintenance
    and repair; environmental compliance of petroleum storage and distribution
    facilities; and construction of new permanent storage and distribution facilities.
    The DLA is required to coordinate these functions with the Services and
    Combatant Commanders.

           Military Departments Responsibilities. The Directive states that the
    Secretaries of the Military Departments are responsible for the operation of
    petroleum facilities under their cognizance.




                                         3
DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural
Gas, and Oil,” June 22, 1994. DoD 4140.25-M (the Manual) implements
DoD Directive 4140.25 and prescribes policy guidance, supply operating
procedures, and reporting instructions. The Manual assigns functional
responsibilities for the integrated management of bulk petroleum products and
associated bulk storage facilities.

        MILCON and MR&E Project Review and Validation. The Manual
states that the Combatant Command, Joint Petroleum Office and the service
control points are responsible for MILCON and MR&E project review and
validation, as well as for developing consolidated project priority lists. The
Joint Petroleum Offices prioritize overseas projects. The Joint Petroleum
Offices and the service control points forward candidate projects and
consolidated project priority lists to DESC.

       Bulk Fuel Inventory Categories. The Manual establishes two
categories of liquid petroleum products: peacetime operating stock (POS) and
petroleum wartime reserve stock.

               POS Computations. The POS is the amount of fuel required to
sustain peacetime operations in support of military demands to be maintained at
a Defense fuel supply point. The Manual provides the formula for computing
POS levels and requires DESC to compute POS and to publish an inventory
management plan that lists approved inventory levels and requirements by
location. The formula for POS gives emphasis to actual prior year fuel usage.
Installations must justify variances of more than ten percent between projected
requirements and actual prior year usage.

               Petroleum Wartime Reserve Stock. Petroleum wartime reserve
stock is inventory held in support of petroleum wartime reserve requirements.

Army Regulation 710-2, “Inventory Management Supply Policy Below the
Wholesale Level,” October 31, 1997. Army Regulation 710-2 states that
sufficient tankage must be available to store peacetime operating stock and that
normal peacetime operations require maintaining fuel stock necessary to
support 5 days of normal operations. Army Regulation 710-2 also assigns
responsibility for reviewing all plans for new construction, modifications, or
upgrades of petroleum facilities to the US Army Petroleum Center.

Army Regulation 415-15, “Army Military Construction Program
Management and Execution,” August 30, 1994. Army Regulation 415-15
requires that the major Army commands (MACOMs):

       •   provide guidance and assistance to their installations and activities in
           MILCON program development; and

       •   review project documentation to ensure that requirements are valid
           and conform to current objectives, policies, and procedures.

                                     4
    Army Regulation 415-15 also requires that the commanders of installations will

           •   prepare and submit completed project documentation on designated
               projects per MACOM instructions;

           •   review and approve functional, operability, and maintainability
               characteristics of all MILCON project concept designs for their
               installations;

           •   participate in the development, justification, and execution of all
               MILCON projects in design and construction for their installations;
               and

           •   advise the MACOM of any circumstances that may cancel a
               requirement or change the scope of a proposed MILCON project.



Yakima Training Center Bulk Fuel Storage Requirements
    The Yakima Training Center (YTC) is a sub-installation of Fort Lewis,
    Washington, and a U.S. Forces Command (FORSCOM) installation. The YTC
    is a designated warfighting center and power projection platform for mobilizing
    Forces. The YTC maintained two fueling stations in support of its training and
    mobilization mission. The DLA did not capitalize YTC fueling facilities until
    March 30, 2000.

    Bulk Fuel Inventory Authorized. The YTC stored only POS fuel inventory
    because the YTC had no petroleum wartime reserve requirements. The Army
    Petroleum Center (APC) determined POS authorization levels for YTC because
    the APC is the Army service control point and had responsibility for POS
    computations at Army facilities not yet capitalized by DESC. The DESC will
    determine FY 2001 POS authorization.
    Existing Fuel Storage Infrastructure. The two fuel stations located at YTC
    had a combined total storage capacity of 220,000 gallons of jet petroleum 8
    (JP8) fuel, diesel fuel, and motor gasoline (MOGAS) until FY 1996. Fuel
    station-1 had seven 20,000-gallon horizontal above ground tanks - three tanks
    for MOGAS; two tanks for diesel fuel; and two tanks for JP8 fuel. Fuel
    station-2 had four 20,000-gallon horizontal above ground tanks containing diesel
    fuel. Fuel station-2 also supported the two diesel tanks of fuel station-1 with a
    gravity feed system. Table 1 shows each fuel station capacity by type of fuel.




                                        5
                      Table 1. Existing Bulk Fuel Storage Capacity
                                        (gallons)

                           Fuel Station-1         Fuel Station-2     Total Existing
       Type of Fuel          Capacity               Capacity           Capacity
           JP8                  40,000                     0             40,000
          Diesel                40,000              80,000             120,000
         MOGAS                  60,000                     0             60,000
          Total               140,000               80,000             220,000

     Bulk Fuel Storage Facility Deficiencies. In July 1993, YTC management
     personnel determined that existing bulk fuel storage facilities were inadequate
     because:

            •   existing JP8 fuel tank storage capacity was insufficient to support a
                10-day heavy brigade training exercise;

            •   diesel fuel tanks were leaking;

            •   storage tanks did not allow access to all stored fuel from any tank;

            •   storage tanks had no monitoring systems to prevent overfill; and

            •   spill berms, intended to contain fuel spills, were no longer effective.
     To remedy these deficiencies, YTC management planned to construct a new
     centralized bulk fuel storage and dispensing facility with seven 50,000-gallon
     above ground tanks. In July 1993, YTC personnel documented the project
     requirements and justification in a DD Form 1391 to request FY 1995 Army
     MILCON funds. The Office of the Assistant Chief of Staff for Installation
     Management (ACSIM), Department of the Army, denied FYs 1995 and 1997
     military construction funding for the centralized bulk fuel storage facility due to
     the lack of available funds.



Bulk Fuel Facility Repair and Renovation Efforts
     In March 1995, YTC personnel submitted MR&E project documentation to
     repair and renovate both existing fuel stations because future funding approval
     for the centralized bulk fuel storage facility MILCON project was uncertain.

     Although DESC had not yet capitalized the YTC bulk fuel storage facilities, the
     DESC approved and funded two MR&E projects in FY 1996 to repair and
     renovate fuel station-1 and to empty, clean, and decommission the storage tanks
     at fuel station-2. The fuel station-1 MR&E project upgraded the storage tanks
     and reconfigured the fuel storage to five 20,000 gallon JP8 fuel tanks, one
     20,000 gallon diesel fuel tank, and one 20,000 gallon MOGAS tank. The

                                            6
    MR&E project increased JP8 fuel storage capacity from 40,000 gallons to
    100,000 gallons, but did not increase the YTC combined bulk fuel storage
    capacity. The MR&E project documentation indicated that the reconfigured
    storage capacity would meet the YTC minimum storage capacity required in
    case funding for the new bulk fuel storage MILCON project was not approved
    for FY 1999. The MR&E project construction began in April 1997 and was
    completed in April 1998 for a total cost of $1.3 million. Table 2 shows the
    YTC bulk fuel storage capacity by fuel type after MR&E project completion.

              Table 2. Bulk Fuel Storage Capacity After MR&E Project
                                      (gallons)

                            Fuel Station-1      Fuel Station-2       Total Existing
       Type of Fuel           Capacity            Capacity             Capacity
           JP8                100,000                      0           100,000
          Diesel                20,000                     0             20,000
         MOGAS                  20,000                     0             20,000
          Total               140,000                      0           140,000


Centralized Bulk Fuel Storage Facility MILCON Project
    In February 1998, ACSIM approved FY 1999 Army MILCON funding for the
    centralized bulk fuel storage facility MILCON project initiated by YTC
    personnel in FY 1993. The MILCON project requirements were based on
    unsupported forecasted data and provided for bulk fuel storage capacity in
    excess of authorized fuel inventory. In addition, the MILCON project
    documentation approved by the Army did not accurately reflect remedied
    environmental conditions and reconfigured bulk fuel storage capacity.
    Bulk Fuel Storage Facility MILCON Project Based on Unsupported
    Forecasted Requirements. The MILCON project documentation cited a
    requirement for a centralized bulk fuel storage facility with a 350,000-gallon
    fuel storage capacity to support an average 10-day heavy brigade training
    exercise. Army personnel at YTC, Fort Lewis, and APC were unable to
    provide documentation to support the forecasted requirement for 35,000 gallons
    per day for a 10-day training period.

            The YTC Installation Services. The YTC installation services personnel
    could not provide documentation to support the forecasted requirement for 35,000
    gallons per day for a 10-day training period. Electronic messages, dated July
    1999, between Fort Lewis senior management and YTC installation services
    personnel indicated that installation services personnel had “not actually computed
    a fuel forecast” but had looked at the equipment density for the units assigned to
    train at the YTC in the event of mobilization. In our interviews with installation
    services personnel, they stated that the new facility was designed for future
    growth and to perform more multiple brigade training. The installation services
    personnel also stated that YTC planned the facility for maximum usage against the

                                        7
worst case scenario that included fuel resupply interruptions. The installation
services personnel could not document any previous fuel supply interruptions.
Documentation obtained from installation services personnel indicated that
resupply interruptions were a concern only during the winter months when they
do not perform multiple brigade training and the training events do not involve
large numbers of vehicles.
       Fort Lewis Directorate of Public Works. Fort Lewis Public Works
Office personnel assisted in developing the DD Form 1391 MILCON project
request for the bulk fuel storage facility MILCON project. The Public Works
Office personnel, however, could not locate any documentation to support the
10-day requirement for 350,000 gallons of fuel.
        Fort Lewis Operations. Engineering personnel at Headquarters I Corps,
Fort Lewis, could not justify or document the 35,000 gallons per day, 10-day
fuel requirement. The engineering personnel stated that engineers that had
participated in the MILCON project were no longer at Fort Lewis. The
engineers currently assigned to Fort Lewis were not familiar with the MILCON
project requirements, and they did not believe the MILCON project had been
revalidated by Fort Lewis personnel between the FY 1993 original project
submission and the February 1998 project funding approval.
        Army Petroleum Center. In an electronic message to the YTC Director
of Installation Services dated June 1999, APC personnel explained that the YTC
request for additional fuel was not supportable and that the DESC would not
store fuel at a facility unless the fuel was authorized peacetime operating stock.
The APC personnel could not justify a 10-day fuel supply and stated that normal
peacetime operations only require a 5-day supply.
The MILCON Project Provided for Excess Bulk Fuel Storage Capacity. The
APC personnel stated that they followed the POS computation formula outlined
in DoD 4140.25-M to compute POS authorization levels. APC personnel
computed the following 1999 Peacetime Operating Stock Authorization for YTC
based on calendar year 1998 actual consumption factors:
       •   78,000 gallons JP8 fuel,
       •   23,215 gallons diesel fuel, and
       •   12,535 gallons MOGAS.
Table 3 shows that the reconfigured bulk fuel storage capacity exceeded
authorized peacetime operating stock levels and did not support the MILCON
project requirement for additional fuel storage.




                                      8
   Table 3. Bulk Fuel Inventory Required vs. Existing Storage Capacity
                                (gallons)

                                 Authorized POS             Bulk Fuel Storage
       Type of Fuel              Fuel Inventory                 Capacity
           JP8                      78,000                      100,000
          Diesel                    23,215                       20,000
         MOGAS                      12,535                       20,000
          Total                    113,750                      140,000


The YTC Fuel Facility Assessment. APC and DESC performed an assessment
of the fuel facilities at YTC while the construction project for the centralized
bulk fuel storage facility was pending award. The assessment determined that

       •   the consolidated and upgraded fuels infrastructure did not require
           replacement,

       •   the pending MILCON project for a new bulk fuel storage facility
           would more than double fuel storage capacity even though the
           Peacetime Operating Stock Authorization had not increased,

       •   the existing facility alone exceeded storage capacity required for
           peacetime operating stock, and

       •   the existing fuel facility provides consolidated mobility fuel support
           for the entire training complex.

The assessment also concluded that the existing fuel facility “meet[s] current
operational, environmental and safety requirements [and] is operated and
maintained at a highly efficient level.”
Table 4 shows the YTC total bulk fuel storage capacity by fuel type after the
MILCON project is completed.


       Table 4. Yakima Training Center Bulk Fuel Storage Capacity
                                (gallons)

                       Existing Fuel       Centralized         Total Available
  Type of Fuel           Capacity          Fuel Station           Capacity
      JP8                 100,000           300,000               400,000
     Diesel                20,000            25,000                45,000
    MOGAS                  20,000            25,000                45,000
     Total                140,000           350,000               490,000




                                       9
    The MILCON Project Documentation Did Not Reflect Existing Bulk Fuel
    Storage Capacity. The approved MILCON project documentation did not
    accurately reflect the completed MR&E repair and renovation effort that
    increased JP8 bulk fuel storage capacity by 250 percent from 40,000 gallons to
    100,000 gallons. The DD Form 1391 stated that
              POL-1 [fuel station-1] stores 40,000 gallons of diesel fuel, 60,000 of
              mogas fuel, and 40,000 gallons of JP-8 fuel . . . . POL-2 [fuel
              station-2] . . . is not being used because it does not have spill
              containment and does not meet current federal and state regulations
              for fuel dispensing. These storage tanks need to be cleaned and
              relined in order to store JP-8 fuel . . .. If the monitoring equipment
              and berm are not provided, these existing tanks will not meet the
              current Environmental Protection Agency (EPA) requirements and
              will have to be shut down.

    Yakima Training Center personnel did not update the data in the DD Form
    1391, dated February 2, 1998, to reflect the $1.3 million MR&E project that
    repaired and renovated the existing bulk fuel storage facilities. The MR&E
    project construction was completed approximately 60 days after the MILCON
    DD Form 1391 date.


Army Bulk Fuel MILCON Requirements Validation Process
    The Army funded the YTC bulk fuel storage MILCON project because the
    Army did not adequately implement DoD and Army guidance that requires fuel-
    related MILCON project requirements to be reviewed by installation senior
    management, reviewed and validated by the MACOM, and reviewed and
    prioritized by the service control point.

    Installation Project Review. Fort Lewis senior management did not adequately
    implement Army Regulation 415-15 requirements to review the functional,
    operability, and maintainability requirements of the new bulk fuel storage
    facility MILCON project. Fort Lewis personnel reviewed the MILCON
    project, but the project submission included requirements for unsupported
    forecasted data and storage capacity that did not support authorized fuel stock
    inventory. In addition, installation management personnel did not cancel or
    revise the scope of the MILCON project submission to reflect current bulk fuel
    storage facility renovation and repair efforts that already exceed requirements.

    MACOM Project Review and Validation. FORSCOM personnel did not
    adequately implement Army Regulation 415-15 requirements to ensure that
    documented project requirements were valid and conformed to current
    objectives, policies, and procedures. The FORSCOM personnel stated that the
    project validation process included reviewing the DD Form 1391 for
    completeness and accuracy and performing an engineering review of the
    technical project requirements. Although FORSCOM personnel approved the
    new bulk fuel storage facility MILCON project, we do not believe that
    FORSCOM personnel performed an adequate review of the project requirements
    because the project submission included requirements for unsupported forecasted
    data and storage capacity that did not support authorized fuel stock inventory.

                                           10
        APC Recommendations to FORSCOM. A memorandum from the
APC to the Deputy Chief of Staff for Logistics and Readiness, FORSCOM,
dated December 16, 1997, outlined the inadequacies of Army MR&E and
MILCON fuel-related project submissions to APC. The memorandum cited
lack of installation and MACOM engineering involvement throughout the
project development process, submission of poorly documented projects, and
requests for fuel storage in excess of authorized fuel stockage levels.

        FORSCOM Personnel Recognized Process Inadequacies. FORSCOM
personnel provided briefing charts prepared by the Office of the Deputy Chief of
Staff for Logistics, FORSCOM, that documented Army MILCON and MR&E
process inadequacies and recommendations to address the inadequacies. The
briefing charts indicated that the key problem was that FORSCOM did not have a
focal point for managing fuel-related MR&E and MILCON programs. The
briefing charts also identified issues that resulted from the problem. FORSCOM
personnel stated that they had not implemented the recommendations because of
manpower shortages.

Service Control Point Project Review and Prioritization. The Army did not
implement the DoD 4140.25-M requirement that the service control point must
review and validate bulk fuel-related MILCON projects and develop a
consolidated project priority list. Army Regulation 710-2 requires that APC
review all plans for new construction, modifications, or upgrades of petroleum
facilities. The FORSCOM personnel submitted the MILCON project to ACSIM
for Army MILCON funding approval, but did not submit the project to APC for
review. As previously stated, ACSIM approved MILCON funding before APC
performed a facility assessment that determined the project requirements were
unsupported.

We were unable to determine, however, whether ACSIM policy for approving
MILCON projects included procedures for determining that bulk fuel storage
facility project requirements were reviewed and prioritized by the APC. The
APC personnel stated that Army policy for bulk fuel storage facility projects
requires the MACOMs to submit project documentation to APC for review.
Interviews with APC personnel indicated that other Army bulk fuel storage
facility projects have also been approved without APC review. In addition, an
April 1998 electronic message from the Office of the Deputy Chief of Staff for
Logistics, Department of the Army, requested that the ACSIM identify fuel-
related MILCON projects that APC did not review. The message emphasized
the importance of the APC review process to ensure “that there are adequate
fuel requirements to support the size of the project.”

As the Army service control point for petroleum facilities, APC should have
oversight into all Army fuel-related MR&E and MILCON projects. Projects
not submitted for APC review cannot be prioritized by the APC to ensure that
the highest priority Army projects are recommended for funding approval.




                                   11
Excess Bulk Storage Operation and Maintenance Costs
    Because the Army did not adequately implement DoD and Army guidance for
    reviewing and validating fuel-related MILCON project requirements, the Army
    must fund the operation and maintenance of a bulk fuel storage facility that
    exceeds fuel inventory requirements.

    DESC only capitalizes facilities that support POS, and only capitalized
    facilities are eligible for DESC MR&E funding. Based on the YTC
    authorized POS, the 350,000-gallon storage capacity provided by the new
    centralized bulk fuel storage facility is not eligible for capitalization. On
    March 30, 2000, DESC capitalized the renovated facility. The DESC will not
    capitalize the new centralized bulk fuel storage facility because it does not
    support POS.

    The APC personnel stated that fuel storage tanks not in use cost as much, or
    more, to maintain than storage tanks that regularly receive and issue fuel.
    Therefore, the Army must fund the operation and maintenance of a new
    centralized YTC bulk fuel storage facility that does not support currently
    validated fuel inventory requirements.



Management Comments on the Finding and Audit Response
    Management Comments on the Requirement for Additional Fuel Storage.
    The Garrison Commander, Fort Lewis, nonconcurred with the finding and
    stated that the Yakima Training Center had a requirement for the new fuel
    storage facility. The Commander stated that the new storage facility enhanced
    the training support mission and their mission as a mobilization station.
    Further, they anticipate a dramatic increase in vehicle miles and fuel
    consumption because of the new Interim Brigade Initiative to create two
    motorized brigades at Fort Lewis. The FORSCOM also nonconcurred with the
    finding and stated that additional bulk fuel storage was necessary to support
    training for an anticipated second brigade to be stationed at Fort Lewis and to
    relocate the fuel facility to the training area. The FORSCOM stated that
    planning for the facility was based on a surge requirement to meet training
    requirements and not on sustained annual usage. The ACSIM partially
    nonconcurred with the finding and stated that the Army has a valid requirement
    for additional fuel storage beyond what was provided by the renovated fuel
    storage facility, however, they stated that the MILCON project to build the new
    fuel storage facility should have been reduced in scope and that they will ensure
    similar actions do not occur in the future. The ACSIM also stated that the need
    for a 10-day supply of fuel is a judgement call and that National Training Center
    data on fuel requirements supported their requirement for a 350,000-gallon total
    storage capacity.

    Audit Response. The Army executed a bulk fuel storage MILCON project to
    support an unauthorized fuel inventory in anticipation of a mission change. The

                                       12
    Army did not have a valid requirement for additional fuel storage beyond what
    was provided by the renovated fuel storage facility because the installation did
    not have authorization for fuel to support the anticipated second brigade. Fuel
    storage infrastructure must be supported by fuel inventory requirements, and
    fuel inventory requirements are calculated by the DESC with input from
    installations in accordance with DoD guidelines. The DoD Directive 4140.25
    prescribes procedures for installations requesting fuel inventory increases of
    more than ten percent over prior year actual usage. Current fuel usage
    documentation and the FY 2001 authorized fuel inventory for Yakima Training
    Center indicate that the storage capacity provided by the renovated storage
    facility remains sufficient.

    However, the Army may have an emerging requirement for the excess fuel
    storage capacity.at the Yakima Training Center based on the anticipated
    dramatic increase in fuel consumption resulting from the new Interim Brigade
    Initiative. The Army does not know how much fuel will be required to support
    this initiative and has not initiated action with DESC guidelines to request a fuel
    inventory increase. We believe it would be prudent to begin coordination with
    DESC on the fuel inventory request because DESC recently capitalized the
    Yakima Training Center fuel inventory and because the Army will be requesting
    a fuel increase of approximately 300%.



Recommendations and Management Comments
    We recommend that the:

    1. Garrison Commander, Fort Lewis, establish procedures to implement
    Army Regulation 415-15, “Army Military Construction Program
    Management and Execution,” August 30, 1994, to

           a. Review and approve the functional, operability, and
              maintainability characteristics for all military construction
              projects concept designs.

           b. Advise the U.S. Forces Command of any circumstances that may
              cancel the requirement or change the scope of a proposed
              military construction project.

    Management Comments. Fort Lewis management concurred with the
    recommendations and issued a memorandum directing compliance with Army
    MILCON procedures.

    2. Commander, U.S. Forces Command,

           a. Establish procedures to implement Army Regulation 415-15,
              “Army Military Construction Program Management and
              Execution,” August 30, 1994, to review project documentation to
              ensure that requirements are valid and conform to current
              objectives, policies, and procedures.

                                        13
       b. Establish procedures to implement Army Petroleum Center
          policy that requires the major Army commands to submit fuel
          storage facility projects to the Army Petroleum Center for
          review.

Management Comments. The U.S. Forces Command concurred with the
recommendations, stating that U.S. Forces Command has procedures in place to
annually review military project justifications and to coordinate fuel storage
facility projects with the Army Petroleum Center.

3. Assistant Chief of Staff for Installation Management, Department of the
Army, review existing policies and procedures to determine whether fuel
storage facility projects for uncapitalized facilities are reviewed by the
Army Petroleum Center before projects are approved for funding.

Management Comments. The ACSIM concurred.




                                  14
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DoD and Army guidance for validating bulk
    fuel storage infrastructure project requirements and made on-site visits to
    determine whether the guidance was adequately implemented. We reviewed the
    policies and procedures followed by Army personnel to review and validate the
    new construction requirement for a centralized fuel station at Yakima Training
    Center. We also reviewed the fuel consumption reports at Yakima Training
    Center from calendar year 1995 to August 1999.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Department of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goal, and performance measure:

    FY 2000 DoD Corporate Level Goal: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (00-DoD-2) FY 2000 Subordinate Performance
    Goal 2.3: Streamline the DoD infrastructure by redesigning the Department’s
    support structure and pursuing business practice reforms. (00-DoD-2.3) FY
    2000 Performance Measure 2.3.1: Percentage of the DoD Budget Spent on
    Infrastructure. (00-DoD-2.3.1)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high risk area.



Methodology
    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from August 1999 through April 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use computer-
    processed data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                       15
Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provide reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of Army management controls over bulk fuel storage MILCON
    projects. Specifically, we reviewed management controls over the review and
    validation process for bulk fuel storage MILCON project requirements. We
    reviewed management’s self-evaluation applicable to those controls.
    Adequacy of Management Controls. We identified material management
    control weaknesses for the Army as defined by DoD Directive 5010.40. Army
    management controls for MILCON projects were not adequate to ensure that
    bulk fuel storage MILCON project requirements were adequately reviewed and
    validated. Recommendations 1.a., 1.b., 2.a., 2.b. and 3, if implemented, will
    establish controls within Army procedures to ensure bulk fuel storage MILCON
    project requirements are adequately reviewed and validated. A copy of the final
    report will be provided to the senior official responsible for management
    controls in the Department of the Army.

    Adequacy of Management’s Self-Evaluation. Army officials did not identify
    bulk fuels storage MILCON projects as an assessable unit and, therefore, did
    not identify or report the material management control weaknesses identified by
    the audit.



Prior Coverage
    No prior coverage has been conducted on Yakima Training Center bulk fuels
    storage during the last 5 years.




                                       16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Chief of Staff for Installation Management
Commander, U.S. Forces Command
  Garrison Commander, Fort Lewis
Auditor General, Department of the Army
Director, Army Petroleum Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       18
Department of the Army
Comments




                    19
20
     Final Report
      Reference




     Page 14




21
22
23
24
25
Audit Team Members

 The Contract Management Directorate, Office of the Assistant Inspector
 General for Auditing, DoD, prepared this report.

    Paul J. Granetto
    Wayne K. Million
    Deborah L. Carros
    Hugh J. Elliott
    James E. Miniter
    Judith I. Padgett
    Dennis R. Wokeck
